Further Improvements Needed in the
Administration of RCRA Civil Penalties
                                   TABLE OF CONTENTS
EXECUTIVE SUMMARY

CHAPTERS

1.INTRODUCTION

     Background

     Scope and Methodology Prior Audit Coverage

2.RECOVERING ECONOMIC BENEFITS OF NONCOMPLIANCE IS ESSENTIAL

     Improvements Needed In Recovering Economic Benefits of Noncompliance

     Table: Review of Economic Benefit Calculations

     Penalty Amounts and Compliance Not Found Related

     More Guidance and Training Needed for Assessing Economic Benefits Recommendations

3.STATES NEED MORE CONSISTENT RCRA PENALTIES AND BETTER DOCUMENTATION

     State Penalty Policies Vary

     Gravity-Based Penalties Vary Among States

     EPA Penalties Have Been Significantly Higher

     Table: Average Final Penalty Amounts

     Conclusions

     Recommendations

     EPA Effectively Documenting Penalties, While Some States Need Improvement

     State Documentation Efforts Varied Depending on Penalty Policies

     Table: State Documentation of Penalty Calculations and Adjustments

     Conclusions

     Recommendation
APPENDIX I - Scope and Methodology

APPENDIX II - Prior Audit Coverage

APPENDIX III - Analysis of Penalties and Compliance

APPENDIX IV - Report Distribution
